FDIC Headquarters Laser Printer Cartridges
Office of Inspector General
Office of Congressional Relations and Evaluations
August 19, 1999
Evaluation Report No. 99-006




                                             CONTENTS

                                             Scope and Methodology                 1
                                             Results in Brief                      2
                                             Background                            2
                                             Review Results                        3
                                             Conclusion and Recommendations        7
                                             Corporation Comments and OIG
                                             Evaluation                            8
                                             Appendix I: Corporation Comments      9
                                             Appendix II: Management Response to
                                             Recommendations                       14
Federal Deposit Insurance Corporation                                                Congressional Relations and Evaluations
Washington, D.C. 20434                                                                           Office of Inspector General




    DATE:                               August 19, 1999

    MEMORANDUM TO:                      Michael J. Rubino
                                        Associate Director, Acquisition and Corporate Services Branch
                                        Division of Administration


    FROM:                               Stephen M. Beard
                                        Director, Office of Congressional Relations and Evaluations

    SUBJECT:                            FDIC Headquarters Laser Printer Cartridges (EVAL-99-006)


    The Office of Congressional Relations and Evaluations (OCRE) has completed a comparative analysis
    of the prices currently paid by FDIC Headquarters (HQ) for laser printer cartridges to prices available
    through other sources. We initiated this review as a result of our recent Evaluation of the FDIC
    Headquarters Copier Administration Program (EVAL-99-004). During the course of the copier
    evaluation, we identified an alternative supplier that offered remanufactured laser printer cartridges.
    Accordingly, we decided to analyze FDIC Headquarters (HQ) laser printer cartridge pricing and
    purchasing practices.

    The objectives of our review were to:

     •    Determine the total amount spent by FDIC HQ on laser printer cartridges in 1998 and the prices
          paid for individual cartridges, and

     •    Identify alternative sources for laser printer cartridges that could reduce printer cartridge costs.


    Scope and Methodology

    To accomplish our work, we interviewed HQ Division of Administration (DOA) and Division of
    Information Resource Management (DIRM) personnel to gather information about FDIC HQ laser
    printer cartridge use and purchases. We obtained printer cartridge usage reports for 1998 and the first
    quarter of 1999 from FDIC's supplier, Boise Cascade Office Products Corporation (Boise). We also
    obtained current pricing information for selected products.

    To identify alternative sources for purchasing printer cartridges, we interviewed representatives from
    the Department of the Treasury’s Franchise Business Activity – East (FBAE) and obtained printer
    cartridge pricing information. We also obtained and reviewed pricing information from the General
    Services Administration (GSA) Federal Supply Schedule (FSS). Finally, we interviewed Office of
    Thrift Supervision (OTS) personnel and contacted three manufacturers used by the agency to
    understand more about OTS’ use of remanufactured printer cartridges. We did not



                                                          1
review the reliability and quality of printer cartridges. We did, however, solicit comments from OTS
and DIRM staff regarding their satisfaction with various new and remanufactured cartridges.

We conducted our review from May to July 1999 according to the President’s Council on Integrity and
Efficiency’s Quality Standards for Inspections.


Results in Brief

We found the printer cartridge pricing that FDIC HQ received from Boise to be generally competitive.
 Boise’s pricing for selected Hewlett Packard (HP) products was lower than pricing from GSA or
other sources that we reviewed. This was largely due to a substantial discount that FDIC HQ received
for designating HP printer cartridges as high-use products.

Nevertheless, we determined that FDIC HQ could reduce costs by continuing to use Boise as its
supplier, but by purchasing HP-compatible cartridges made by other manufacturers. DIRM has used
one of the manufacturer’s products before and indicated it was satisfied with the quality of those
products. We estimated that FDIC HQ could save $31,000 to $41,000 annually by purchasing
HP-compatible products from Boise.

Further, FDIC HQ could achieve greater savings by using remanufactured printer cartridges. Boise,
GSA, and numerous other sources offer remanufactured cartridges. DIRM has tried remanufactured
cartridges on at least two occasions, but concluded the print quality was not sufficient. However, OTS
has used remanufactured cartridges in its printers with positive results for several years. We estimated
that FDIC HQ could save up to $84,000 annually and reduce printer cartridge costs by one-half by
using remanufactured printer cartridges.

On August 9, 1999, the Associate Director, Acquisition and Corporate Services Branch (ACSB),
provided FDIC’s written response to a draft of this report. The response also included an attached
memorandum from DIRM responding to the draft report. The Associate Director agreed with one of
our recommendations and explained the Corporation’s decision for disagreeing with the second
recommendation. The Associate Director’s response provided the requisite elements of a management
decision for both recommendations. The Corporation’s written response is included in its entirety as
Appendix I to this report. Appendix II presents our assessment of management’s responses to the
recommendations and shows that we have a management decision for each of the recommendations.


Background

FDIC HQ purchased its printer cartridges from Boise in 1998. FDIC HQ spent $216,615 on
3,363 printer cartridges in 1998, according to Boise billing data. Almost all cartridges purchased by
Headquarters in 1998 were new HP printer cartridges. None of the printer cartridges purchased in
1998 were remanufactured. Most of the laser printer cartridges purchased were for HP IIISi/4Si and
5Si/5SiMX printers (4Si and 5Si). As shown in Figure 1 on the following page, purchases for HP 4Si
and 5Si products comprised 77 percent of the FDIC HQ’s 1998 printer cartridge cost.



                                                   2
                  Figure 1: 1998 FDIC HQ Printer Cartridge Usage by Cost


                                  23%


                                                                                    HP 5Si/5SiMX
                                                                                    HP IIISi/4Si
                                                                                    Other
                                                                              55%

                              22%


                  Source: Boise 1998 invoicing data.

Boise granted a 56 percent discount to items that FDIC HQ included on its “Standard Stock List”
(List). The List included any items stored in FDIC HQ supply rooms. Boise allowed FDIC HQ to
place 330 standard items on the List and to designate as many manufacturers per product, as necessary.
 HQ designated HP cartridges as "high-use" products. Accordingly, FDIC HQ received a 56 percent
discount from catalog prices on all HP cartridges. FDIC HQ received a 45 percent discount from
catalog prices on cartridges from other manufacturers whose products did not carry the high-use
designation.


Review Results

The prices that FDIC HQ paid for most of its printer cartridges were generally competitive. We
compared prices for HP 4Si and 5Si from Boise to prices available under the GSA FSS. We also
performed a general internet search to identify other sources and pricing for HP-compatible products.
Table 1 presents selected price quotes for 4Si and 5Si cartridges.

Table 1: Selected Pricing for Cartridges Compatible with HP 4Si and 5Si Printers
                                      Printer Cartridge Prices
                                Boise1                  GSA                FBAE               OTS Vendors
  Manufacturer              4Si         5Si       4Si            5Si    4Si         5Si        4Si       5Si
 HP                           $73        $106          $93       $135         -           -          -         -
 Lexmark                        60         87          77         112         -           -          -         -
 Verbatim                       52         82          71         112         -           -          -         -
                      2
 Remanufactured                  42           79         54          50      $72  $119         $54         $57
Source: Boise supply catalog, GSA Advantage Website, and interviews with FBAE and OTS representatives.
Note 1: All Boise prices presented reflect the 56 percent high-use discount.
Note 2: Boise, GSA, FBAE, and OTS offered or purchased remanufactured printer cartridges from several different
sources. We selected the least expensive manufacturer for presentation purposes.
As shown, we found the HP printer cartridge pricing that FDIC HQ received from Boise to be 21 to
22 percent lower than pricing from the GSA FSS, including GSA volume discounts. Likewise, Boise


                                                             3
pricing for HP-compatible cartridges produced by Lexmark and Verbatim were 22 to 27 percent lower
than GSA prices. We performed a general search for HP cartridge prices on the Internet and found no
sources offering HP 4Si or 5Si-compatible products at prices lower than those available through Boise.


HP-Compatible Products Could Reduce Printer Cartridge Costs

Nevertheless, we determined that FDIC HQ could reduce costs by continuing to use Boise as its
supplier, but by purchasing HP-compatible cartridges made by other manufacturers, such as Lexmark
and Verbatim. Both manufacturers offered HP-compatible cartridges for 4Si and 5Si printers.
Assuming that Boise granted Lexmark and Verbatim products the high-use designation, their prices for
the 4Si and 5Si cartridges would be 18 to 29 percent lower than Boise prices for HP cartridges. As
shown in Table 2, we estimated that FDIC HQ could save $31,000 to $41,000 annually by purchasing
HP-compatible products from Boise.

       Table 2: Estimated Annual Savings of Using HP-Compatible Manufacturers
          Annual Savings over HP Current Costs Based on 1998 Usage
          Manufacturer                                                         Annual Savings
          Lexmark                                                                     $30,978
          Verbatim                                                                     41,362
       Source: OIG analysis based on 1998 FDIC HQ printer cartridge usage and current Boise prices.

During the course of our review, we learned that DIRM was testing Lexmark printer cartridges. A
DIRM representative acknowledged that Lexmark cartridges were less expensive than HP products
and indicated that DIRM had not incurred any quality problems with the Lexmark cartridges. The
representative also indicated that DIRM would be willing to test Verbatim cartridges.

The DIRM representative was concerned whether using non-HP cartridges would impact or void HP’s
1-year printer warranty. We researched HP’s website and found the terms of HP’s 1-year On-Site
Limited Warranty for 5Si printers. The website indicated the warranty would not apply to defects
resulting from the use of non-HP toner cartridges. However, the warranty clarified that:

       “The use of non-HP or refilled toner cartridges alone does not affect either your warranty or
       any maintenance contract you may have purchased. However, if an HP LaserJet printer failure
       or damage is found to be attributable directly to the use of a non-HP toner cartridge, HP will
       not repair the printer free-of-charge.”




                                                        4
Remanufactured Printer Cartridges Could Provide Additional Savings

A number of suppliers including Boise, GSA, and FBAE also offered remanufactured printer
cartridges. We analyzed the costs of remanufactured cartridges for selected manufacturers and found
the prices for such products varied greatly. For example, 4Si remanufactured cartridges from GSA
were actually more expensive than newly manufactured Verbatim cartridges from Boise. Further, the
prices for remanufactured cartridges from FBAE either approximated or exceeded the costs for new
HP brand-name cartridges available through Boise.

However, we found that prices for certain remanufactured cartridges under the GSA FSS were less
expensive than newly manufactured cartridges. For example, a remanufactured cartridge from the
GSA FSS for a 5Si printer was 53 percent lower than a newly manufactured HP printer cartridge from
Boise and 39 percent lower than a newly manufactured Verbatim printer cartridge. Table 3 presents
the estimated savings associated with purchasing remanufactured printer cartridges.

        Table 3: Estimated Annual Savings of Using Remanufactured Cartridges
          Annual Savings over HP Current Costs Based on 1998 Usage
          Supplier                                                             Annual Savings
          Boise                                                                       $51,690
          GSA                                                                         $76,481
        Source: OIG analysis based on 1998 FDIC HQ printer cartridge usage and current Boise and GSA prices.

DIRM tested remanufactured cartridges on at least two occasions. A DIRM representative indicated
that DIRM recently tested six remanufactured printer cartridges. The representative reported that print
quality for four cartridges was gray instead of black and one cartridge leaked into a printer. During a
previous remanufactured printer cartridge test, the DIRM representative indicated that the cartridge
failure rate was 50 to 80 percent.

Conversely, OTS has used remanufactured cartridges for more than 5 years. An OTS official indicated
that remanufactured laser printer cartridges have provided good results for OTS and estimated a failure
rate of about 2 percent. OTS has a purchase agreement with a number of remanufactured printer
cartridge manufacturers. The agency periodically contacts its manufacturers for pricing quotes and
then orders cartridges from the source with the best price. OTS provided the name of three
remanufactured printer cartridges sources. All three sources provided prices for 4Si and 5Si cartridges
that were less expensive than newly manufactured HP cartridges from Boise.

Given the potential cost savings and OTS’ success, we recommended in our draft report that ACSB
evaluate the feasibility of using remanufactured cartridges in conjunction with DIRM. We suggested
that the study be sufficiently broad to include remanufactured products from multiple sources and
include discussions with OTS and/or other agencies to ascertain the potential benefits and tradeoffs of
using remanufactured printer cartridges.




                                                        5
Summary Analysis of Potential Savings

To determine potential savings from printer cartridge alternatives, we multiplied FDIC HQ’s 1998
printer cartridge usage by the current prices for products discussed in this report. As shown in Figure 2
below, for HP 4Si printer cartridges, FDIC HQ could save up to $14,000 annually by purchasing
HP-compatible cartridges through Boise. This would be a 28 percent reduction in the amount that
FDIC HQ paid for this printer cartridge model during 1998. Further, FDIC HQ could save almost
$21,000 annually by purchasing remanufactured 4Si cartridges from Boise. This would result in a
42 percent reduction in the amount that FDIC HQ paid for this printer cartridge model during 1998.

 Figure 2: Estimated Savings Associated with HP 4Si Printer Cartridges



            Annual Savings Over Current Costs for
            HP 4Si Printer Cartridges
                    30
                                       $21
                    20
                                    $14                    $13                        $13
                    10         $9
     Thousands of




                          $0                          $1
                     0
        Dollars




                                                -$3
                    -10
                                             -$14
                    -20

                    -30
                                                                      -$33
                    -40
                               Boise            GSA              FBAE         OTS Sources

                          HP         Lexmark        Verbatim     Remanufactured


Source: Boise-Cascade, GSA Advantage Website, and discussions with FBAE and OTS.

With respect to HP 5Si printer cartridges, FDIC HQ could save almost $28,000 annually by purchasing
HP-compatible cartridges through Boise. This alternative would result in a 23 percent reduction in the
amount that FDIC HQ paid for this printer cartridge model during 1998. Moreover, FDIC HQ could
save almost $64,000 annually by purchasing remanufactured printer cartridges from the GSA FSS for
its 5Si printers. These savings would result in a 53 percent reduction in the amount that FDIC HQ paid
for this printer cartridge model during 1998. These estimated savings are presented on the following
page in Figure 3.




                                                             6
Figure 3: Estimated Savings Associated with HP 5Si Printer Cartridges



              Annual Savings Over Current Costs for
              HP 5Si Printer Cartridges
                   80
                                                        $64
                   60                                                                      $56

                   40
    Thousands of




                                 $28$31
       Dollars




                              $22
                   20

                    0    $0
                                              -$7 -$6
                                                                        -$15
                   -20
                                           -$33
                   -40
                              Boise           GSA                FBAE              OTS Sources

                         HP      Lexmark      Verbatim        Remanufactured


Source: Boise-Cascade, GSA Advantage Website, and discussions with FBAE and OTS.

Overall, FDIC HQ could achieve the greatest savings by purchasing remanufactured 4Si printer
cartridges from Boise and remanufactured 5Si printer cartridges from the GSA FSS. We estimated
that FDIC HQ could save over $84,000 annually through this option and FDIC HQ could reduce
printer cartridge costs by 50 percent.


Conclusion and Recommendations

We found that FDIC HQ generally received competitive pricing for printer cartridges from Boise.
Nevertheless, we concluded that FDIC HQ could achieve savings by purchasing HP-compatible printer
cartridges from Boise rather than name brand HP products. Moreover, FDIC HQ could reduce printer
cartridge costs by as much as 50 percent by purchasing remanufactured printer cartridges instead of
newly manufactured cartridges.

Accordingly, we recommended that the Associate Director, ACSB evaluate:

(1) Whether ACSB could fulfill FDIC HQ’s printer cartridge needs more economically by purchasing
    HP-compatible printer cartridges made by other manufacturers through Boise, and

(2) The feasibility of purchasing remanufactured printer cartridges to meet FDIC HQ’s printer
    cartridge needs.


                                                        7
Corporation Comments and OIG Evaluation

On August 9, 1999, the Associate Director, ACSB, provided FDIC’s response to a draft of this report.
 The response also included an attached memorandum from DIRM responding to the draft report.
These responses are presented in Appendix I to this report. ACSB agreed with one of our report
recommendations. ACSB disagreed with the second recommendation based on DIRM’s technical
evaluation of the recommendation. However, ACSB and DIRM’s response adequately supported the
Corporation’s position. Accordingly, ACSB’s written response provided the requisites for a
management decision on both recommendations. A summary of these recommendations follow.

Evaluate whether ACSB could fulfill FDIC HQ’s printer cartridge needs more economically by
purchasing HP-compatible printer cartridges made by other manufacturers through Boise
(recommendation 1): ACSB agreed with this recommendation. ACSB indicated that DIRM is
testing Lexmark and Verbatim cartridges and expects to receive a recommendation from DIRM by
September 15, 1999. Accordingly, as of the date of this final report, we cannot determine whether
there will be funds put to better use resulting from this recommendation. We will report such monetary
benefits in our next Semiannual Report to the Congress should DIRM recommend and ACSB procure
less expensive cartridges.

Evaluate the feasibility of purchasing remanufactured printer cartridges to meet FDIC HQ’s
printer cartridge needs (recommendation 2): ACSB disagreed with this recommendation based on
DIRM’s technical evaluation and recommendation. DIRM responded that it had already investigated
the use of remanufactured printer cartridges in the FDIC environment several times and cited
conclusions from two information technology firms that questioned the benefits of remanufactured
printer cartridges. DIRM did not concur with the recommendation to perform an additional study into
the use of remanufactured printer cartridges.

We discussed the feasibility of using remanufactured printer cartridges with DIRM representatives
during our review and asked specific questions about DIRM’s efforts to test remanufactured printer
cartridges. The results of these discussions are included in the body of this report. Further, we
provided DIRM an opportunity to comment on the summary results of the review before we issued the
draft report. In its response to our draft report, DIRM provided additional information about its past
efforts to test remanufactured printer cartridges. These efforts were much more extensive than those
described to us during our review. Had DIRM provided this information during our review, our
conclusions and recommendation with respect to remanufactured printer cartridges may have been
different.

ACSB and DIRM’s response is sufficient to reach a management decision on this recommendation.
However, the response did not address the disparity between OTS’ and FDIC’s experiences. To that
end, if FDIC decides to reassess remanufactured printer cartridges we suggest that DIRM contact OTS
or other agencies to ascertain their level of satisfaction with remanufactured printer cartridges.




                                                  8
Appendix I: Corporation Comments




                                   9
10
11
12
13
Appendix II –Management Responses to Recommendations

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on DOA management's written response to our draft report.


                                                                                    Expected or    Documentation                         Management
 Rec.                                                                                 Actual      that will confirm      Monetary         Decision:
 Number      Corrective Action: Taken or Planned / Status                           Completion       final action        Benefits         Yes or No
                                                                                       Date

     1       DIRM is currently testing Lexmark and Verbatim printer cartridges        9/15/99     DIRM                To be determined      Yes
             as an alternative to HP cartridges. DIRM will provide a                              recommendation to
             recommendation to ACSB at the end of the test period .                               ACSB


     2       DIRM responded that it has already tested a variety of                    N/A        N/A                      N/A              Yes
             remanufactured printer cartridges on at least two occasions. DIRM
             reported poor results from these tests. At this time, DIRM does not
             intend to perform additional testing of remanufactured printer
             cartridges.




                                                                               14
